Audit Report




OIG-12-004
SAFETY AND SOUNDESS: Failed Bank Review of The First
National Bank of Florida
November 9, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                             November 9, 2011


             OIG-12-004

             MEMORANDUM FOR JOHN G. WALSH
                            ACTING COMPTROLLER OF THE CURRENCY

             FROM:                 Jeffrey Dye /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of The First National Bank of Florida,
                                   Milton, Florida

             This memorandum presents the results of our review of the failure of The First
             National Bank of Florida (FNB Florida) located in Milton, Florida. The bank opened in
             1984 and operated eight offices, a main office in Milton and seven branches
             located in a three-county area in the Florida panhandle. The bank did not have a
             holding company. The Office of the Comptroller of the Currency (OCC) closed FNB
             Florida and appointed the Federal Deposit Insurance Corporation (FDIC) as receiver
             on September 9, 2011. As of June 30, 2011, FNB Florida had approximately
             $296.8 million in total assets and $280.1 million in total deposits. As of
             September 30, 2011, FDIC estimated the loss to the Deposit Insurance Fund to be
             $48.4 million.

             Because the estimated loss to the Deposit Insurance Fund is less than $200 million,
             as set forth by section 38(k) of the Federal Deposit Insurance Act, we conducted a
             review of the failure of FNB Florida that was limited to (1) ascertaining the grounds
             identified by OCC for appointing the FDIC as receiver and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver and (2) interviewed an OCC problem bank
             specialist.

             We conducted this performance audit during September and October 2011 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-12-004
Page 2

Causes of FNB Florida’s Failure
OCC appointed FDIC receiver based on the following grounds: (1) the bank had
experienced substantial dissipation of assets or earnings due to unsafe or unsound
practices, (2) the bank was in an unsafe and unsound condition to transact
business, and (3) the bank was undercapitalized and failed to submit an acceptable
capital restoration plan.

The primary cause of FNB Florida’s failure was its aggressive loan growth strategy
that focused on commercial real estate (CRE) loans without having sufficient capital
levels to offset the risk. FNB Florida’s inadequate credit administration and credit
risk management practices and deficient board and management supervision also
contributed to its failure. Examples of the bank’s inadequate credit administration
included inaccurate loan risk ratings, appraisal deficiencies, and a flawed allowance
for loan and lease losses methodology. The bank’s board and management failed to
sufficiently address FNB Florida’s inadequate credit administration and credit risk
management practices. Losses associated with the high concentration in CRE loans
and deficient credit risk management depleted capital and ultimately led to FNB
Florida’s failure.

Conclusion
Based on our review of the causes of FNB Florida’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure or the supervision
exercised by OCC. Accordingly, we have determined that a more in-depth review of
the bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with our conclusion as to the causes of FNB
Florida’s failure and that it had no concerns with our determination that an in-depth
review of the bank’s failure was not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Theresa Cameron, Audit Manager, at (202) 927-1011.

Attachments
         OIG-12-004

       Attachment 1
Management Response
                                                   OIG-12-004

                                                 Attachment 2
                                                   Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
